<html>
<title> - CONSIDERATIONS FOR AN AMERICAN GRAND STRATEGY (PART 1)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-172]

         CONSIDERATIONS FOR AN AMERICAN GRAND STRATEGY (PART 1)

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 16, 2008

     

     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                  U.S. GOVERNMENT PRINTING OFFICE
45-260                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK MURPHY, Pennsylvania         TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, September 16, 2008, Considerations for an American Grand 
  Strategy (Part 1)..............................................     1

Appendix:

Tuesday, September 16, 2008......................................    35
                              ----------                              

                      TUESDAY, SEPTEMBER 16, 2008
         CONSIDERATIONS FOR AN AMERICAN GRAND STRATEGY (PART 1)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Albright, Hon. Madeleine K., Former Secretary of State...........     4

                                APPENDIX

Prepared Statements:

    Albright, Hon. Madeleine K...................................    39

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
 
         CONSIDERATIONS FOR AN AMERICAN GRAND STRATEGY (PART 1)

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Tuesday, September 16, 2008.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning, ladies and gentlemen. Welcome 
to the Armed Services Committee hearing on considerations for a 
grand strategy for the United States.
    Appearing before us today is Dr. Madeleine Albright, former 
Secretary of State for the Clinton Administration. And, Madam 
Secretary, we wish to thank you especially for your 
understanding and your patience as we tried to put the hearing 
together which--we did it.
    And it is very unusual, I might point out to the members, 
that we have only a single witness. We like to present a 
variety of viewpoints. But in this case, although the staff 
worked very hard and both Ranking Member Hunter and I made 
personal appeals to several, we were unable to find a 
counterpart to sit with you. And although we won't get them 
here today, we will continue to try to provide members with a 
range of viewpoints in the days ahead.
    Today is the third in a series of three hearings on grand 
strategy. The first two were held earlier this summer by the 
Oversight and Investigations Subcommittee. The idea has been to 
provide members with a range of insights from former senior 
policy officials and academics because, regardless of who is 
elected this November, the impending transfer of 
administrations will offer a potential opportunity to reexamine 
the Nation's grand strategy and perhaps make some needed 
adjustments.
    Today, there is a fundamental challenge affecting the 
national security of the United States which has not received 
the notice and consideration it deserves. There does not seem 
to be a comprehensive strategy for advancing United States' 
interests. This strategy is void, and it detracts from almost 
every policy effort advanced by the United States Government.
    Our international actions can be likened to a pick-up 
sandlot baseball game, rather than a solid course of action. 
Major policies are sometimes inconsistent and contradictory, 
and so we sometimes suffer from a splintering of national power 
and an inability to coherently address threats and reassure and 
cooperate with allies around the world.
    The word ``strategy'' has military roots coming from the 
Greek word for generalship, but the concept of a strategy 
extends well beyond that. To me, it means a commonly agreed 
upon description of critical U.S. interests and how to advance 
them using all elements of national power: economic, 
diplomatic, and military.
    When President Eisenhower took office, he commissioned the 
Solarium Project to review strategies for dealing with the 
Soviet Union. After a competitive process in which three teams 
of advisors promoted the merits of three strategies, President 
Eisenhower decided to continue the policy of containment 
developed by President Truman and did so with a largely unified 
Administration.
    The next President would be well-advised to engage in and 
personally lead a Solarium-type approach to determining a 
strategy for today's rapidly changing world. To ensure that a 
new strategy for America can truly develop support across the 
political spectrum, Congress should be involved in the process. 
We can shape the debate. We can shape it in ways such as this 
hearing and in the strategy documents we require by statute. In 
order to build support for any new strategy, the general 
outline of the debate should be shared with and involve the 
American people.
    I look forward to hearing your testimony today, Madam 
Secretary, and I hope that my colleagues will join me in urging 
the next President to address this problem and join with me in 
a conversation, both in Congress and with the American people, 
about what today's strategy should be.
    Before I turn to my good friend and Ranking Member Duncan 
Hunter for any comments, I want to acknowledge that, while we 
don't know what the rest of the year will bring, that this may 
very well be the last hearing for Mr. Hunter. And while we will 
recognize his distinguished service at another time, I did want 
to point out here and thank my friend Duncan Hunter for the 
many dedicated years, his knowledge, his integrity, his 
straightforwardness, most of all, his friendship, and I thank 
him for the leadership he has provided for us in this forum as 
well as elsewhere.
    So, Duncan, we thank you for that. Well deserved, Duncan. 
Well deserved.
    I might also make mention that members who are not 
returning, besides our friend Duncan Hunter, is Mr. Saxton, Mr. 
Everett, Mr. Andrews, and Mr. Udall as well. And we thank them 
for their efforts and their hard work through the years.
    So before we recognize Madam Secretary, Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman.
    I think I have been thanked too much here. It is a great 
privilege to serve with my colleagues in I think the most 
bipartisan committee and I think many times the most important 
committee on the Hill. So thanks so much for your friendship, 
Ike; and for all my colleagues, it has been wonderful serving 
with you. And what a nice note to be here with Secretary 
Albright, and I think an appropriate time when we are in kind 
of a state of flux here.
    And I just thought, Mr. Chairman, I was just reflecting on, 
as we have this economic challenge that comes upon us, it is 
interesting that it comes at a time when it is coincidental 
with a foreign policy challenge or a number of foreign policy 
challenges.
    And just reflecting on Iraq, obviously, this hand-off of 
the security burden is a major challenge for our military right 
now, how they rotate American forces out of that battlefield 
and leave in victory and leave an Iraqi force that is capable 
of holding and being responsive to the civilian government 
there. And I think perhaps one of the major issues that we 
should look at right now is ensuring that this economic burden 
that is presently borne by us in many areas which can now be 
transferred to and shouldered by the Iraqi Government is 
perhaps an area of focus that we should be looking at.
    And the Secretary has been through some--she has been 
through a number of difficult times for this country. And I 
know that one area that she has looked at closely, that all of 
our experts have, is, of course, Iran, the continuing 
centrifuge operations at the Natanz, the complicity of Russia 
in developing that pool of expertise. And while it is shielded 
in some of their locations by a domestic operation, that team 
of technicians are clearly being assembled at this point who 
will have the capability of delivering at some point a nuclear 
device for Iran.
    So I would be interested, Madam Secretary, in, obviously, 
your comments and feelings with respect to how we meet that 
challenge. The military option is obviously there. It is on the 
table, never taken off with respect to Iran. But whether or not 
the sanctions, neutralized as they have been by Russia and 
China, are working and whether there is more room there, more 
headroom for heavier sanctions, I think is something all of us 
are interested in.
    Turning to Afghanistan, Mr. Chairman, I just say that I am 
also interested in the Secretary's feelings with respect to 
that theater. Now, with the increasing pressure that is 
attended in the world news every time the U.S. forces go after 
the base, the military base in the strip area, what I call that 
border lands area, making forays against American forces and 
Afghan forces across the border, and as we follow those forces 
to their source and to their location and we strike them, that 
has brought about an increasing outcry on the Pakistan side of 
the border. And it appears to me, Mr. Chairman, that at some 
point we are going to have to put an Intelligence, 
Surveillance, Reconnaissance (ISR) curtain across that border 
with unmanned aerial vehicles and surveillance capability so 
that no matter what happens in Pakistan we are able to respond 
and to minimize the damage that can be incurred by al Qaeda and 
Taliban moving across the border on a regular basis.
    But I would be interested in the Secretary's advice on this 
new complexity that we are facing in this new safe haven for al 
Qaeda and the Taliban which has been manifested there or built 
in the strip area on the Pakistan side of the border. Very, 
very critical.
    The other major discussion that is being had right now with 
respect to Georgia and North Atlantic Treaty Organization 
(NATO) and how deep the U.S. wants to go in terms of incurring 
obligations, which are part and parcel of being part of NATO 
and bringing Georgia in, and beyond that and the bigger picture 
with this newly freed nation having the inevitable conflict 
with the base country Russia and faring poorly in that conflict 
and the prospects for American continued support and for 
continued stability in that government with the implications 
that are, of course, brought about by those two or three 
petroleum arteries that cut across Georgia, which are some of 
the few arteries going into Europe and Turkey that aren't 
physically controlled by Russia, and where she thinks we should 
go with that, with this very difficult problem of having an 
ally, it has been a good ally, and yet having some very strong 
obligations that will be incurred by bringing Georgia into 
NATO. So I would be interested in her comments on that.
    So, Mr. Chairman, beyond that, I am interested in the 
Secretary's views on the big picture in terms of China and 
Russia, where we go with these two prevalent forces and maybe 
any side comments on where we go with this. We now have our 
panel that is working, the congressional mandated panel, on 
where we go with strategic systems with nuclear weapons; and if 
she has any comments on that I would be very interested in 
that.
    Thank you, Madam Secretary, for being with us today.
    And, Mr. Chairman, we have got a couple of folks that want 
to come in and give their views, but they have a timely basis. 
So if we have a chance in the next week or two and we are still 
hanging in here, I would very much appreciate having the chance 
for other views to be held, also. But I am very interested, 
obviously, in the Secretary's views. Thank you very much, and I 
look forward to her testimony.
    The Chairman. Thank you so much.
    Madam Secretary, thank you again for being with us.

 STATEMENT OF THE HON. MADELEINE K. ALBRIGHT, FORMER SECRETARY 
                            OF STATE

    Secretary Albright. Thank you very much, Mr. Chairman and 
Congressman Hunter.
    Mr. Chairman and Congressman Hunter, I am delighted to be 
here--and other members of the committee. I am very happy to be 
here and to have a chance to give a short opening statement and 
anxious to discuss the tasks that will confront the next 
President. So let us begin with some facts.
    First, America remains by far the world's mightiest 
economic and military power, but this does not mean that we are 
unlimited in everything that we can accomplish. Alliances still 
matter and so do friendships, which means that our strategy for 
national security must encompass the security of others.
    Second, the world does remain a dangerous place, but the 
nature of those dangers is fluid, and we must, therefore, make 
wise use of every foreign policy option, from quiet diplomacy 
to military force.
    Third, our Armed Forces have been put through a wringer 
these past few years, and they need time and resources to 
recover and to adapt more fully to modern demand.
    Fourth, in recent times, we have seen a shifting of global 
influence from the West to the East, from industrialized to 
emerging economies and from energy consuming to energy 
producing countries. These trends have been accompanied by a 
vacuum in world leadership as America has focused on the 
Persian Gulf, Europe has looked inward, global institutions 
have lost authority, regional powers have pursued narrow 
agendas and a new edition of an old rivalry has developed 
between democratic and autocratic governments.
    Leaders such as those in China, Russia, Iran and Venezuela 
increasingly challenge our belief in political openness and our 
emphasis on civil and human rights. Such objections have 
appealed to other leaders who may have won power through 
elections but who are determined to retain power through 
whatever means are necessary.
    Our new President will therefore inherit a world that is, 
compared to a couple of decades ago, less open to American 
leadership, more endangered by nuclear weapons, more affected 
by global warming, more at risk to shortages of energy and food 
and more divided between the rich and the poor.
    It is little wonder that leaders in both political parties 
have embraced the mantra of change, but my message to you this 
morning is that the road back for America begins with what must 
not change. We cannot recover the ground we have lost by 
abandoning our ideals. The foundations of American leadership 
must remain what it has been for generations: a commitment to 
liberty and law, support for justice and peace and advocacy of 
human rights and economic opportunity for all.
    At the same time, we must change how we approach specific 
challenges, beginning with the hot wars in Iraq and Afghanistan 
and our global confrontation with al Qaeda. No matter who is 
elected, the next President must begin by withdrawing U.S. 
troops from Iraq. If he does not do so voluntarily, he will be 
forced by an evolving consensus within Iraq to do so 
nonetheless.
    By initiating the process and controlling the timing, the 
White House can steer credit to responsible Iraqi leaders, 
instead of allowing radicals to claim they have driven us out. 
As the redeployment proceeds, remaining troops must be used 
wisely to further prepare Iraqi forces to assume command and to 
extend the reach and potency of the central government.
    Despite recent gains, Iraq is still threatened by internal 
rivalries, but these can only be resolved by the country's own 
decision makers. American muscle cannot substitute for Iraqi 
spine. One can argue whether our withdrawal should take two 
years or three, but the time of transition is at hand.
    In Afghanistan, years of war have created a stalemate. 
People want jobs, safety, a government worthy of the name and 
the right to control their own lives. To succeed, our approach 
must correspond to their aspirations. Militarily, we should 
focus on training Afghan forces to defend Afghan villages; 
politically, we should push to improve the quality of 
governments in Kabul; and, diplomatically, we should enlist 
every ounce of leverage we have to encourage security 
cooperation between Afghanistan and Pakistan.
    Such trouble spots as Baghdad and Kabul are sure to occupy 
the next President, but they should not consume all his 
attention. Just as an effective foreign policy cannot be 
exclusively unilateral, neither can it be unidimensional. A 
leader in the global era must view the world through a global 
lens, and that is why I hope our 44th commander-in-chief will 
establish a new and forward-looking mission for our country.
    That mission should be to harness the latest advances in 
science and technology to improve the quality of life for 
people everywhere. This aspect of our security strategy should 
extend to the growing of food, the distribution of medicine, 
the conservation of water, the production of energy and the 
preservation of the atmosphere. It should include a challenge 
to the American public to serve as a laboratory for best 
environmental practices, gradually replacing mass consumption 
with sustainability as the emblem of the American way.
    Mr. Chairman and members of the committee, we cannot expect 
to recover all the ground we have lost in the first 100 or even 
the first 1,000 days of a new Administration. It will take time 
to establish the right identity for America in a world that has 
grown reluctant to follow the lead of any one country. It will 
take time, but the opportunity is there.
    People across the globe may not be clamoring for our 
leadership, but there is no doubt that a guiding hand is 
needed. And that guidance is unlikely to come from those who 
are now challenging our values, from radical populists, 
aggressive nationalists, autocratic modernizers or the apostles 
of holy war.
    America can make no claim to perfection, but we have no 
interest in domination. But we do have a conviction to offer 
the world, and that is a belief in the fundamental dignity and 
importance of every human being. And this is the principle that 
is at the heart of every democracy. It provides the basis for 
the kind of leadership that could restore international respect 
for America; it creates the foundation for unity across the 
barriers of geography, race, gender and creed; and it can 
serve, I believe, as a useful starting point for discussing 
America's grand strategy under a new President for the United 
States.
    So I thank you very much, and I now look forward to 
answering all your questions and really focusing on what the 
possibilities are for the next President of the United States.
    The Chairman. We thank you for your outstanding remarks. 
They are very insightful, and we appreciate you again being 
with us.
    [The prepared statement of Secretary Albright can be found 
in the Appendix on page 39.]
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman; and, again, thank you, 
Madam Secretary.
    You made one remark there at the end where you said you 
thought it would take a long time for us to make up for the 
ground we have lost. I look at the 25 million or so people who 
are living under a modicum of freedom in Iraq as ground that we 
have gained. And understanding the challenge that we have got 
in Afghanistan right now and the back and forth and that many 
things hang in the balance, if we can with the NATO plus 
coalition maintain in Afghanistan and solidify this 
representative government, this fragile government, we will 
have brought freedom to some millions of people there.
    What is the population of Afghanistan? I am not sure what 
it is. But I think it is somewhat less than Iraq. Does anybody 
have that?
    Secretary Albright. That's right. I don't.
    Mr. Hunter. But, whatever it is, we will have--obviously, 
those people living under a modicum of freedom also would be 
what I would consider to be a gain for the United States. And I 
am reminded that none of these things come wrapped in neat 
packages. It has been blood, sweat and tears in the Iraqi 
theater. But I am reminded of that image of those hundreds of 
Kurdish mothers killed in midstride by poison gas, holding 
their babies similarly killed in midstride by poison gas by 
Saddam Hussein's people and those excavations which are now 
showing on the History Channel of people, hundreds and hundreds 
of people, being excavated from the mass graves where the 
mothers and babies similarly had bullet holes in the backs of 
their skulls, some people not even shot because they ran out of 
ammunition and they simply pushed them in the holes, covered 
them up and let them suffocate, under the dictatorship of 
Saddam Hussein.
    I think that the establishment--albeit we swore at one 
point this Nation would never engage in nation building after 
Somalia, we did engage in nation building. We have built a 
nation. It has been expensive, it has been tough, it has been 
dangerous, and we have lost lives. But it looks like we are 
accomplishing that; and I would look at that as ground gained, 
not ground lost.
    Your response, ma'am.
    Secretary Albright. Well, we can reargue whether the Iraqi 
war was right or wrong. I think I spent a great deal of my time 
both at the United Nations and as Secretary of State dealing 
with the problem of Saddam Hussein. I think he was everything 
that President Bush said he was: a horrible person who had in 
fact done all the things you are talking about as far as 
terrorizing his own population and killing a lot of it. I, 
however, believe that we had him in a strategic box and that he 
was not an imminent threat to the United States.
    I did think that we needed to be more proactive in 
Afghanistan and that President Bush reacted totally 
appropriately after 9/11 in terms of going after al Qaeda and 
Osama bin Laden in Afghanistan, and I wish that we had kept our 
eye on the ball there. Because some of the issues that you have 
asked today are directly related to the fact that we, I 
believe, did not take advantage of where we were right after 9/
11 when our military really did a lot of very extensive and 
important work.
    I also absolutely want to give credit to our military in 
Iraq. I think they have been brilliant, they have done 
everything they have been asked to do, and they have in fact I 
think made us all proud. The problem is that the issue in Iraq 
is not just military, it is political. And that has not been 
dealt with enough, nor has there been enough diplomacy in the 
region for the ultimate solutions in Iraq.
    And I have to say that what troubles me most about Iraq is 
what it has done to America's reputation. Nothing made me 
prouder than to sit behind a sign that said the United States. 
I am not a born American, and yet to be able to sit both at the 
United Nations (U.N.) and as Secretary of State. But I don't 
like the fact that a lot of our moral authority was damaged by 
Iraq, and it is hurting us in a lot of places.
    On Afghanistan, I do think that we need to pay a lot of 
attention. President Karzai is a very fine man. We have all--
you have met him. I have met him. I admire him a lot. But the 
truth is he doesn't have control over his country, and he needs 
a lot of help. We need to get more troops in there, American, 
as well as getting more assistance from NATO and to deal with 
the myriad problems there of the resurgence of the Taliban, the 
growth of the drug trade and generally kind of lack of 
institutional structures in Afghanistan. And, sad to say, there 
is corruption there.
    And then the issue you raised earlier about the problem 
with the border with Pakistan. And I think that is one of the 
hardest issues that we have to deal with, because Pakistan 
combines everything that gives you an international migraine. 
It has nuclear weapons, it has corruption, poverty, extremism 
and an unstable government, and it is important to us. And so 
we can pursue this, but I do think that we need to pay a lot of 
attention to Afghanistan and that border area.
    Mr. Hunter. Thank you.
    And one last question to Iran, obviously, will be a 
challenge for many years, but all eyes are focused on those 
centrifuges working at full steam. When they get this uranium 
up to the 5 percent level, that is about as much as it takes to 
get to utilize it in a domestic nuclear energy program. Beyond 
that, at some point between that and 90 percent, it can be 
used, obviously, to make nuclear weapons.
    The effort of the West has been manifested in sanctions. Do 
you think they are working and do you think there is any head 
space left for more sanctions or do you think that we are going 
to have to look more seriously at the last option, which is a 
military option?
    Secretary Albright. We had a very interesting time 
yesterday afternoon at George Washington University. All the 
former--five former Secretaries of State got together for a 
discussion, three Republicans and two Democrats; and we all 
agreed that what was essential was to have a dialogue with 
Iran--I found that very interesting--Secretary Baker, Secretary 
Kissinger, Secretary Powell, Secretary Christopher and I. And 
people are very--we were all very concerned about what was 
going on in Iran.
    And this morning, in reading the papers, where the 
International Atomic Energy Agency (IAEA) is basically saying 
that the Iranians are not freezing or allowing them to answer 
the questions that the IAEA has posed and a statement by the 
United States that we want to have stronger sanctions I think 
means that this is the day-to-day activity and will certainly 
concern the next President.
    I think that we need to, first of all, understand the 
Iranian society better. It is much more complicated than I 
think we have--many of us have read about. And every time we go 
into overdrive over how terrible Ahmadinejad is, he actually 
gains some popularity in Iran. He is having a lot of serious 
issues economically. They actually will have elections.
    So I think we need to be more sophisticated about what is 
going on there, and I do think we need to have dialogue with 
Iran. We don't gain anything by not talking to them.
    I also do think we have learned a lot about how to use 
sanctions; and some of it has to do with Iraq, where we were 
accused of just having blunt sanctions that hurt the 
population. And so we in the Clinton Administration, then 
picked up by the Bush Administration, began to look more and 
more at smart sanctions which were more targeted at the people 
involved in it. And I do think we should look more at some of 
those, some disincentives to further activity by various groups 
in Iran and then some incentives which would be the holding out 
of having a dialogue with them.
    You know, it is interesting in terms of language, a lot of 
people talk about sticks and carrots. Well, it turns out that 
that is really what people do to mules in Iran. So we should 
talk about incentives and disincentives, package them.
    I also do think, as was stated by you and Chairman Skelton, 
is you never can take any option off the table. The problem is 
that I am not sure that a military option actually would solve 
the problems there, and it is different from what reactor that 
can be hit. From everything that I have read, they have their 
nuclear facility spread around, and it is not an easy solution 
militarily, but we never can take any option off the table.
    Mr. Hunter. Thank you, Mr. Chairman.
    And just one editorial comment, since this probably may be 
my last hearing. I do take exception, Madam Secretary, with 
your feeling that we have lost the moral high ground in Iraq. I 
think it is exactly the opposite. I think the fact that there 
is not--that this country put out so much in terms of blood, 
sweat and tears to build a nation from scratch, and you know we 
built that military from scratch. A lot of folks said that we 
should take Saddam Hussein's old army. And I have looked at the 
make-up of that army with 11,000 Sunni generals. If we had kept 
those guys on the payroll, the situation would be a mess right 
now. I think it was right to have built them from scratch and 
to build that government.
    And to come from the days of mass graves and the gassing of 
mothers and children to having a nation which is starting anew, 
I think that is the American example. And I think the world--it 
is not lost in the world that we have vaccinated hundreds of 
thousands of children, that we have built schools, that we have 
done all these things which have the humanitarian dimension.
    And, you know, I am kind of reminded of the time that my 
folks were in the Philippines at the embassy and there were 
people demonstrating against America, America out of the 
Philippines, and they were carrying very well-made signs. And 
another line had people waiting to get visas to come to the 
United States. And the organizers would walk over and hire 
people to walk around for an hour or so from the visa line. So 
the people getting visas to come to the U.S. would hold these 
well-made signs up put up by a few good organizers saying 
America out of the Philippines, and yet they were the people 
trying to get visas to come to the U.S.
    My point being that I think the good people of the world 
like what America did, and I think that the American example of 
replacing despotism and tyranny with freedom is appreciated by 
most of the people of the world, official statements 
notwithstanding. And I think that what we have done--and maybe 
I see most of the military side, but I think what we have done 
in that country has been to give the American example to 
hundreds of millions of people who otherwise would not have it, 
and I think that it has elevated this country's reputation.
    And the same thing with respect to Afghanistan and the 
efforts that were undertaken in Georgia. While it is still 
difficult to understand or to figure out how far we go in 
Georgia and what kind of commitments we make, the idea that 
these newly freed captive nations once under the tyranny of 
this great empire called the Soviet Union are now free and are 
now resisting attempts to, in some cases, bring them back, I 
think that is an example of one thing or a reflection of one 
thing, that is, American leadership.
    So I disagree with you that our currency is low right now. 
I think it is high. I think that part of the dollar is strong. 
But thank you for your testimony, Madam Secretary.
    Secretary Albright. May I? And we can have a lot of 
discussion about this. But I am Chairman of the Board of the 
National Democratic Institute, and I am very proud of what we 
do to promote democracy. I, however, do not believe that you 
can impose democracy. And I have spent a lot of time thinking 
and talking and doing something about the Iraqi people, and I 
have respect for those that went out and voted and did what 
they could. But I think that the Iraq war has hurt the United 
States, and there are not a lot of leaders in the world that 
look at Iraq and say I want my country to look just like that. 
And so I would hope that we could do a lot to help in the 
reconstruction of Iraq and restore the good name of democracy 
and that the next President of the United States will in fact 
understand exactly what you have said in terms of America's 
leadership in providing the tools for countries to become 
democratic. Because it is good for them, and it is good for us. 
And I wish you the very best.
    Mr. Hunter. And just one last word, Madam Secretary. 
Millions of people raising their fingers in the air with that 
purple mark on it showing an enthusiasm that we never expected 
for democracy in Iraq was not an imposition by the United 
States. And those people going out and voting when they were 
under threat of physical harm I think surprised the world and 
maybe surprised a lot of folks in this country. But that 
certainly wasn't an imposition by the United States. That was 
their undertaking.
    But thank you, Madam Secretary.
    Mr. Ortiz [presiding]. We wanted to be sure we gave him 
enough time because this is his last hearing.
    Mr. Hunter. Thanks, Solomon, I appreciate it.
    Mr. Ortiz. Madam Secretary, thank you so much for joining 
us today; and I am glad you stated about engagement and 
engaging Iran.
    A group of us were invited to go to Iran 4 or 5 years ago. 
Tom Lantos was one of them, myself and some other members. But 
it never materialized, for whatever the reason, just like the 
same way when we wanted to go to North Korea after the Six-
Party Talks were, you know, disengaged and there was a lot of 
obstacles. But you know Congress is a separate but equal power, 
and I think we can do better when all three branches of 
government, what we need to do, working together.
    But I am glad that we do need to engage some of these 
countries. I know that just recently there has been some 
engagement with Iran. In my opinion, I think this came a little 
late. We should have done it a long time ago.
    But let me ask you a question. In light of recent 
deployments of two Russian bombers to Venezuela in preparation 
for a joint training exercise in the Caribbean to include a 
Russian naval squadron and long-range patrol planes, what 
course of action should be considered for the grand strategy to 
offset emerging challenges to our south, to our backyard? We 
have seen now where I think that Bolivia and some of the other 
countries, without having to name all of them, have decided 
that they don't want to have our ambassadors in that area. What 
has gone wrong or what should we do to try to see if we can 
balance our strategy in that area?
    Secretary Albright. Can I just emphasize something, as I 
speak only for myself? I think that there is a history to what 
has just happened in our neighbors to the south. And 
relationships between the U.S. and Latin America have always 
been complicated, frankly. We are kind of damned if we do, 
damned if we don't. If we don't pay attention, then we are 
accused of being negligent. If we pay too much attention, we 
are accused of interfering and bossing everybody around.
    I do think we need to--we did not pay enough attention to 
Latin America in the last eight years, and I think one of the 
issues goes back to the democracy issue, and that is that I 
believe democracies have to deliver. People want to vote and 
eat. And so there have not been enough reforms in a variety of 
the Latin American countries and so you get somebody like Hugo 
Chavez, who is a demagogue, basically, using the 
disenfranchisement or the lack of or the marginalization of 
large members of his population to all of a sudden grant him 
more power. In Bolivia, similar things are happening.
    So I think that what the U.S. should be doing is thinking 
much more about having a variety of relations with the Latin 
American countries, where we have a better economic 
relationship with them and generally act more as partners.
    But the other issue--and I would like us all to think about 
this. This is a very difficult subject in light of looking at 
what has happened in what is known as the sphere of interest or 
influence around Russia and that this is a tit for tat going 
on, basically. President Medvedev has now spoken about the fact 
that Georgia and various countries around Russia's borders are 
part of their sphere of influence, or as I call it sphere of 
interest. Chavez likes to poke us in the eye. And there has 
become kind of an unholy alliance between countries that have 
arms and want oil and vice versa.
    I think that we need to not think about spheres of 
interest. In the 21st century, we have issues that transcend 
that, and that we need to think about what is best for the 
people in those countries, that people should be able to choose 
the alliances they want to be in.
    Congressman Hunter was talking about the Ukraine and 
Georgia. I think that we need to disabuse the Russians of a 
sphere of interest issue. And, frankly, I think we pay too much 
attention to Hugo Chavez and that the more we invade against 
him he gets a certain amount of power.
    I regret the fact that he has this relationship with the 
Russians. I think that it poses dangers. But I think we need to 
look at a much larger way at looking at cooperation with 
countries and with populations of countries and the importance 
of democracy delivering.
    Mr. Ortiz. I have other questions, but I would like to 
allow other members to ask questions, and now I yield to my 
good friend, Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Madam Secretary, in 1956, what may shortly be recognized as 
the most important speech given in the last century was given 
by Marion King Hubbert to a group of oil people in San Antonio, 
Texas. He predicted in 1956 that the United States would reach 
its maximum oil production in 1970. This was really audacious, 
because at that time we were the largest producer, consumer and 
exporter of oil in the world.
    Right on schedule, in 1970, we reached our maximum 
production of oil. No matter what we have done since, like 
drilling more oil wells than all the rest of the world put 
together, today we produce half the oil we did in 1970.
    In 1979, he predicted that the world would reach its 
maximum oil production about now. In 1980, looking back over 
that last 10 years to 1970, it was obvious that M. King Hubbert 
was right about the United States reaching its maximum oil 
production in 1970. So the world has now blown 28 years when we 
knew with absolute certainty we would be here today in the oil 
situation that we are in.
    In the last several years, our government has paid for four 
major studies, all of which have been ignored. The first one 
was an Science Applications International Corporation (SAIC) 
study known as the Hirsch Report in early 2005. In late 2005, 
the Corps of Engineers for the Army did a similar study. Early 
last year, the Government Accountability Office (GAO) released 
its study and the National Petroleum Council in the fall of 
last year. All four of these reports said in different ways 
that the peaking of oil is certain. It is either present or 
imminent, with potentially devastating consequences.
    Leaders in our country have paid essentially no attention 
to these reports. What should the next President do about this 
situation?
    Secretary Albright. Well, I think--I don't know the speech, 
but I do think that we have been not paying enough attention 
generally to our energy policy, thinking enough about what our 
own needs are, as well as making sure that we are not involved 
in very difficult competitions abroad for energy.
    Again, Congressman Hunter talked about the pipelines that 
are so important to us throughout a variety of places in 
central Asia and what is happening in Europe. I do think that 
the next President of the United States has to look at a 
comprehensive energy policy that looks at alternative sources, 
that is willing to really put America's best minds to 
innovation.
    I mentioned in my opening remarks that what needs to happen 
is to harness the innovative capacity of the American people 
and to see that there is a lot of good that can be done and 
money to be made in innovative energy sources and alternative 
sources. I think that the next President has to spend a lot of 
time on a comprehensive energy policy and seeing how it not 
only works in terms of our domestic situation but also its 
linkages to the general international situation. I think it is 
very serious, and we do not pay enough attention to it.
    I worked for President Carter when he was trying to deal 
with some of the issues in the 1970's that you described. 
People kind of made fun of it. And the bottom line is that we 
have not given it consistent attention.
    Mr. Bartlett. Why do you think these four reports have been 
ignored?
    Secretary Albright. I don't know, I have to tell you. Maybe 
because people don't like what they say. I honestly don't know.
    I think that reports should be considered. One should 
consider what the source of the report is and who has put it 
together. But that is why we in fact need to have transparency 
in dealing with the energy issue, as well as all other issues 
that the government takes up. Transparency and who provides the 
information I think is very important.
    Mr. Bartlett. My wife tells me that I shouldn't be talking 
about this, because don't I remember in ancient Greece they 
killed the messenger that brought bad news. Do you think that 
is maybe why our leaders aren't talking about this?
    Secretary Albright. It could be. There are a lot of 
messengers that are trying to penetrate in terms of looking at 
things differently. So I think it is--I think that when reports 
are commissioned or when various questions are asked that at 
least the courtesy of really looking at them is worth it. But I 
do think that it is important to know where the report comes 
from, what the kind of hidden agenda might be in any report, 
what is overt. But I do think that it is worth looking at them. 
And I am sorry that I don't exactly know about them myself.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman [presiding]. Thank you.
    Before calling Ms. Sanchez, let me ask you a question, if I 
may. During the era of the post World War II era when my fellow 
Missourian Harry Truman was President, in some respects the 
world was less complex although every bit as difficult, if not 
more dangerous, with the Communist threat that was emerging in 
1946, 1947, 1948 and thereafter. And President Truman was able 
to glue together the so-called Truman Doctrine, the doctrine of 
containment.
    Compared to that era, the world today is even more complex. 
This is reflected recently. The United States Army put together 
a new field manual which covers military operations for the 
whole spectrum--on the one hand, the capability of fighting 
guerilla warfare insurgencies; on the other hand, strong force 
on force, which of course is a very difficult challenge in and 
of itself.
    But that is really where we are when we look at the 
strategic challenges that we have, insurgencies in the Middle 
East and yet emerging states on the other. And how does one 
begin to craft a strategy toward the various diverse challenges 
that we face today in the global spectrum?
    Secretary Albright. I think that it is always very 
interesting to try to figure out whether the period after World 
War II was more complex or more dangerous than what we are 
involved in now. We have all studied a lot about how new 
architecture was created after World War II and how President 
Truman and his team were able to, in fact, pull that together 
and create a doctrine and a strategy for the United States to 
follow for a very long time.
    There have been attempts at various other times to, quote, 
have a doctrine or a strategy. And it is harder. People try to 
come up with a word that would be like containment, and it is 
impossible these days to kind of summarize everything in one 
word.
    What I do think is interesting in terms of lessons from 
President Truman and the Truman Doctrine and the Point Four 
Program and foreign aid is his capability of, even in a 
different kind of world, at marshalling the various tools that 
we have, being able to see foreign assistance and what is now 
called public diplomacy as working together with having a 
mighty military force and negotiating and talking with other 
countries.
    I think in the 21st century what we are looking at is a 
host of very different kinds of problems. We don't have one 
enemy. And we need to figure out--and I could list, for 
instance, I think that the next President is going to have five 
huge umbrella problems to work on: Nuclear nonproliferation, we 
see that already in the questions that we have had today; how 
to fight terrorism without creating more terrorists; how to we 
give democracy back its good name; how to deal with the growing 
gap between the rich and the poor in the world--and while there 
is no direct line between poverty and terrorism, when people 
are marginalized they are more likely to join those who do not 
like us; and then the bundle of issues that have to do with 
energy, environment, food supplies.
    Just by mentioning those issues and not even talking about 
Iraq and Afghanistan, I think it requires a different kind of a 
strategy where we have to work with other countries on these 
transnational issues. And the next President I think is going 
to have a hard time because there is so much to be done. But it 
requires understanding what the American role is, which I 
continue to believe is as a guiding partner.
    But the emphasis--you can put any kind of adjective on 
partner, but the emphasis on partner, and then look at 
institutional structures that allow there to be cooperation on 
those, just those five issues that I mentioned. Because no 
matter how strong the U.S. is we can't do it by ourselves.
    But it is very hard, I have to tell you, to just kind of 
come up with a grand strategy. And what happens, because 
foreign policy doesn't come in four-year segments, is there are 
a number of decisions that are already out there that the next 
President is going to have to deal with that will in fact color 
and really impinge in some way on what grand strategy should 
be.
    But I agree with you, Mr. Chairman. We need to think in 
larger terms about what the role of the U.S. should be and how 
we work with other countries to solve just the issues that I 
have mentioned, and there are many others.
    The Chairman. Thank you very much.
    President Clinton made reference to our country as the 
indispensable nation. If my recollection is correct, the first 
person to refer to our country as that was Winston Churchill 
right after the Second World War, and I believe it is still 
true that our leadership is still necessary on this globe.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman; and it is nice to 
have you before us again, Madam Secretary.
    I agree with you that I still believe that we remain the 
most influential power in the world. And I have a little 
concern when I look at the competitive economic situation going 
on in our country vis-a-vis other nations, and I think that we 
have to have a really great domestic policy in order to ensure 
that we stay economically competitive in this new world as it 
engages in so many issues like energy which is changing the 
dynamics of money and power in the world, at least for a while.
    My question to you is, because I see this transition coming 
from one Presidential Administration to the next, whoever that 
might be, and I know that we always--we tend to lose ground 
simply because people aren't in place. It takes a while to get 
things done. People have to learn the job. They have to 
understand what is going on.
    My question to you is how do we--what is the best blueprint 
to transition away from eight years of avoiding diplomacy, 
which is what I see the Bush Administration had as a mantra for 
a long time, and going back to being a country of leadership in 
a multilateral sort of situation? What would be the blueprint 
for that? Given that we are getting ready for this transition, 
maybe we can think ahead to start to put that in play.
    Secretary Albright. Well, there are various aspects. I have 
got to say that I was very impressed by Secretary Gates' speech 
recently in which, as Secretary of Defense, he talks about the 
necessity of expanding other parts of the U.S. Government, 
specifically the diplomatic aspect of it, in terms of adding 
people to the Foreign Service. That is something that should be 
an ongoing thing and definitely not partisan in terms of 
expanding the number of Foreign Service Officers.
    But also then, and I think it fits with some of my earlier 
statements, I think that national security policy for the 21st 
century is much more complicated in terms of what needs to be 
done, of experts that are needed to deal with, let us say, 
environment or energy. Those are issues that, when I was 
starting out my life in international relations, we didn't 
spend a lot of time talking about those. In fact, talking about 
economics was a big deal. And so they now need to have a lot 
more experts--civilian, civil servants and a variety of people.
    And I think we should--you all maybe can spend some time 
looking at Secretary Gates' speech, because I really think that 
it is so essential, and it obviously has a budget impact.
    The other part that is something that some of us have been 
talking about that I would hope it is absolutely essential in 
terms of the partnership between the executive and the 
legislative branch is to get confirmation of people that are 
going to be in the next Administration as rapidly as possible. 
I have been transitioned into and I have transitioned, and I 
think part of the issue is there is so much to do and the 
people are not in place. And it is a very hard part. We talked 
about the cooperation of the two branches. This is something 
that I hope could happen.
    But I think the main thing that we all have to think about 
is--and we are talking about grand strategy or blueprints--is 
that we are looking at a very different set of issues that 
require a different set of people to work on them, that require 
a different kind of cooperation within the executive branch, 
and one has to begin to look at how that is going to work no 
matter who wins, and then a cooperation between the Congress 
and the executive branch in terms of money and in terms of 
confirmation.
    Ms. Sanchez. Madam Secretary, one of the things that I have 
heard from a few ambassadors, who will remain unnamed, as I 
have gone around in some of the visits I have made, is that 
they feel like we have so increased our military or our 
Homeland Security type personnel overseas that in some cases a 
mission may be more military people or those engaged in these 
types of issues rather than the direct reports that render a 
state mission in a country. And have you heard that and what do 
you think the solution is to that, given--and that this has 
occurred since 9/11, basically?
    Secretary Albright. Well, I do think that what has happened 
because we have been in a war, there has been an overemphasis 
on the military aspects of missions, and there has been an 
imbalance between what the State Department does and what the 
Defense Department does. And that is why I take Secretary 
Gates' speech so seriously. He is somebody that I have known a 
long time. We worked together in the Carter Administration, and 
as he himself said, he has had a number of different jobs, and 
he can look at things from a much larger perspective.
    And I do think that our military is absolutely crucial, but 
we are asking our military to do things that are not exactly in 
their original mandates. And I think we need to rebalance in 
order to have our diplomats be able to do what they have to do, 
but there are not enough of them, frankly, and then to employ 
these civilian corps and a variety of reconstruction teams that 
are needed. But it is that combination of cooperation of the 
military and the civilians that is important, and it needs to 
be rebalanced, and that is why I so appreciated what Secretary 
Gates had to say.
    Ms. Sanchez. Thank you, Madam Secretary.
    And thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Davis, please.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    I appreciate, Madam Secretary, your bringing up Secretary 
Gates' speech, particularly the Kansas speech. A number of us 
are involved--Representative Davis and I co-chair the National 
Security Interagency Reform Caucus here in the House, and I 
think sometimes we look back fondly on the early Cold War and 
think with nostalgia that everybody got along, and it was 
perfectly wonderful the way we came together, when, in fact, 
there was a huge amount of division of opinion, very diverse 
approaches. However, the one thing that I think that happened 
was despite the many, many differences of opinion in 
approaching the threats, we were able to codify the process 
starting with the National Security Act of 1947.
    To have an operable strategy, in my opinion, you have to 
have an operable national security process. Because strategy is 
driven by dealing with inevitabilities, we were able to adapt, 
despite this divergence of opinion, to a successful overall 
long-term strategy.
    My question is this: Rather than just simply increasing the 
number of Foreign Service officers, although I think that is a 
very important thing to do, and the need to reallocate, how 
would you construct a vision for true interagency reform to 
allow us to use more tools in the tool box, so to speak, in 
carrying out an American strategy with the full spectrum of our 
instruments of power?
    Secretary Albright. You are going to be sorry you asked 
this because I teach a whole course.
    Mr. Davis of Kentucky. I will be very happy.
    Secretary Albright. I think part of the issue here is that 
the 1947 act really was seminal in so many different ways. It 
was something that actually was set up originally as a way, a 
study, of how to limit a strong President, President Roosevelt, 
because people were concerned about how he made decisions. And 
it has been very interesting to see the evolution of that act.
    I do think that there needs to be some general 
reorganization, but the issue--and I have to say I went through 
some reorganization when I was Secretary of State. It is a very 
difficult process and time-consuming and also uses up a great 
deal of political capital. So the question is how the next 
President, whoever he is, fixes the plane while he is flying 
it, because there are going to be a whole host of issues that 
have to be dealt with immediately, and too much reorganization, 
in fact, I think, creates a host of issues.
    In the White House we have seen more and more cooperation 
through the National Security Council (NSC) and the National 
Economic Council (NEC) and Homeland Security within that, but I 
think that there needs to be--and there are a number of 
different suggestions out there in terms of how to make the 
White House operate more closely together and use the 
departments in a way that does not emasculate them, frankly.
    Mr. Davis of Kentucky. If I could reclaim my time for a 
moment, many of these challenges are not driven by personality 
or administration. I know on a much, much smaller scale, some 
of the coordination issues that we are dealing with today you 
dealt with as Secretary of State and also experienced as our 
United Nations representative when we were in Somalia, later in 
the former Yugoslavia. And I was wondering something very 
specifically that you might want to change so all the silos 
don't lead directly to the National Security Council, but there 
is an ability to be empowered to act quickly in a region to 
bring resources together. What might you want to be different?
    Secretary Albright. I do think that one of the things that 
needs to be thought about, and it goes to Congresswoman 
Sanchez's question a little bit before, of whether there is a 
way to have teams already that have operated together that are 
both defense and civilian teams that have trained together and 
know, in fact, how to be deployed very quickly. The NSC system 
does not have to be a slow system. It is a way to get decisions 
to the President. It is very hard to actually deploy people 
abroad without the President making a decision. But I do think 
that what would be useful would be to create kind of ready-made 
teams that, in fact, know how to work together.
    One of the problems that we have had ever since the end of 
the Cold War and humanitarian intervention or the various 
issues that we do is that it has been hard to determine what 
the military role is. When we were in office, I would go down 
and look at joint training exercises, and all of a sudden you 
had people that were trained to capture ground be the 
negotiators when they actually went into a town, and people 
were scared of people with green faces and didn't want to talk 
to them. So there had to be some calibration about how our 
military operates. And so I think we need to look at all of 
that, but ready-made teams, I think, would be a good idea.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman. I yield 
back.
    The Chairman. Thank you very much.
    The gentlewoman from California Mrs. Tauscher.
    Ms. Tauscher. Thank you, Mr. Chairman.
    Secretary Albright, I can't tell you how happy I am to hear 
you. I returned last Monday leading a CODEL to Afghanistan and 
Pakistan. On the way back we went through Vienna to see 
Director General ElBaradei at the IAEA. The estimates at the 
IAEA for global nuclear power increase, civilian nuclear power, 
are that they will double by 2030, and that with that comes the 
risk that we have many countries with immature governments, 
countries that perhaps cannot control their own borders, 
countries that are somewhat chaotic in their ability to 
transfer power in a democratized way, having nuclear power that 
can be used to enrich weapons.
    As you know, the nonproliferation treaty and the general 
arms control framework has been badly battered over the last 
few years, and I have been an advocate for international fuel 
banking, ways to create accountability, closed fuel cycles for 
civilian reactors, perhaps even growing the nuclear club just 
by saying to the folks that we know have nuclear weapons that 
haven't signed a nonproliferation treaty, well, you are in, you 
are now forced by the fact that we can't allow that countries 
that haven't signed the nonproliferation treaty to not have any 
kind of IAEA regime over them just because of the danger that 
it brings to freedom-loving people.
    Can you talk a little bit about how you think we should 
begin to, in a new Administration, deal with the 
nonproliferation threat posed by so many countries going 
nuclear, and how you feel about the nonproliferation treaty 
review that is coming up and the things that we need to do to 
strengthen and reform it?
    Secretary Albright. I am very troubled by what has happened 
to the whole nonproliferation regime, and I think it is broken. 
And it was something that worked for a long time, but it is 
based on a bargain, and the bargain is that the haves will 
systematically disarm, and the have-nots will not try to become 
haves. And both sides have broken it, frankly, when the United 
States began to look at new generations of nuclear weapons, and 
we weren't disarming, and when, in fact, there are more nuclear 
powers.
    I don't know whether the Atoms for Peace speech--whether at 
the time physicists didn't fully understand how easy it was to 
move from peaceful to weaponized, but it is evident that that 
is a major loophole, especially if the IAEA is not allowed to 
do its work, and I think we should take advantage. For 
instance, the U.S.-India nuclear agreement is coming up to all 
of you, and I think that it could be the basis of a new system 
where there is a fissile material cut-off treaty.
    The Comprehensive Test Ban Treaty (CTBT) needs to be 
ratified. There needs to be a robust approach to the nuclear 
issue. I have subscribed to what was initially an idea by 
Secretary Schultz and others, Kissinger, Perry, and Sam Nunn, 
in terms of ultimately moving to a nuclear-free world. That is 
our destination. But I do think that we need to take a very 
serious review of the whole approach. The international fuel 
bank is important.
    The part that makes it difficult now, and it goes to the 
energy question, is that there is a need for additional energy, 
and there are even those in the environmental movement who are 
saying that nuclear energy is clean energy. So you have that 
goal, and then you have countries that have various parts of 
nuclear technology that want to sell it, and you have a broken 
system, and you have the U.S. not exactly in a leadership role 
on this. And I do think that the next President has a golden 
opportunity to move that forward.
    Ms. Tauscher. Thank you, Madam Secretary.
    I yield back my time.
    The Chairman. Dr. Gingrey, please.
    Dr. Gingrey. Madam Secretary, I want to thank you for your 
service to our country as Secretary of State and Ambassador to 
United Nations. We appreciate your being here with us today.
    My question is kind of a segue to what Mrs. Tauscher was 
just talking about with regard to the concerns and your 
response regarding nuclear. And I think you said that the 
nuclear nonproliferation treaty is essentially broken. I don't 
disagree with you on that, and I think we do have some real 
problems there.
    In your testimony earlier you discussed that we have seen a 
shifting of global influence for any number of reasons, but one 
of which is that energy-producing nations are becoming more 
influential than energy-consuming countries. Clearly this 
indicates that nations like Russia, Iran, and Venezuela, which 
ostensibly will continue wielding more and more influence, will 
have the ability to undermine American grand strategy no matter 
what future Administration develops it. So I have two 
questions, and I would ask you if you could to answer yes or 
no.
    The first question is, do you see our energy policy as a 
vital component of or backdrop for a grand strategy?
    Secretary Albright. Yes.
    Dr. Gingrey. I thank you, and I certainly agree with you on 
that, Madam Secretary.
    The second question then is since you do agree that energy 
policy is a vital component of grand strategy, if America was 
self-sufficient as far as meeting our own energy needs, and 
other nations like Venezuela did not have that leverage over 
us, wouldn't the development and the execution of any grand 
strategy be simpler and have a possibly--hopefully a more 
favorable outcome for the United States in regard to our grand 
strategy?
    Secretary Albright. I think that it would certainly help if 
we could be self-sufficient. The question, frankly, is whether 
we can be, and that requires a lot of work on alternative 
sources of fuel, renewables and a variety of different ways. 
And I have talked a lot about the importance of energy 
security, which is a little bit different than energy 
independence, because it does mean that there are certain 
countries that we will have to continue to get energy from. But 
we need to--what I find so stunning is that we have not, in 
fact, put the foreign and brilliant American minds to 
developing new technology. That has always been our strength 
and should be part of the grand strategy, but it would 
certainly be good if we were not dependent on countries that 
can turn the spigot off and on.
    Dr. Gingrey. Madam Secretary, I am going to take that as a 
yes answer. I think it is 99 percent a yes answer. I know we 
can't change the past, but if not for the actions of the 
previous administration 13 years ago that literally prevented 
the exploration of American energy resources, and I, of course, 
am referring to President Clinton's veto of the 1995 bill 
permitting exploration in Artic National Wildlife Refuge 
(ANWR), would we not be less reliant on potential rogue states 
like Russia and Venezuela for energy? Wouldn't our grand 
strategy be different today?
    Now, Madam Secretary, these are rhetorical question 
questions if you want to respond. But here we are today on the 
House floor with an energy bill, an energy bill that 
purportedly includes drilling, a drilling component, but it is 
absolutely a hoax because, Madam Secretary and my colleagues, 
there is really no opportunity to drill. I think the Democratic 
Majority and Ms. Pelosi in particular was exactly right when 
she said, well, any drilling would take 10 years to get oil at 
the pump, and that is true when you have environmental 
extremists groups who can sue every time a lease is granted and 
tie this up in court for an indefinite period of time. We need 
to put a time limit on bringing lawsuits in regard to these new 
leases.
    And the other thing, Madam Secretary, again, we may be a 
little off the subject, but the subject is energy, the subject 
is energy independence, as you said, the subject is a grand 
strategy which we can't develop, I think, until we do have that 
energy independence and we don't have to be concerned about 
these rogue nations developing nuclear weapons.
    I will yield back to you in the last 10 or 15 seconds.
    Secretary Albright. I do think that drilling in ANWR is a 
mistake. I do, however, believe that we need to look at 
alternative sources, and I don't think that drilling is the 
answer. I think that clearly you all are having a debate about 
where to drill, but I do think that what is essential is to 
think forward and to think about the 21st century technologies 
here and try to get a package of a variety of sources of 
energy, and that that is where we should be putting our--really 
our energy in terms of thought process here.
    So I didn't want to be trapped into this answer, but I 
really do think that we have not done enough in having a 
comprehensive energy policy, seeing how it fits into grand 
strategy, but I stand by what President Clinton did on energy 
issues.
    Dr. Gingrey. Well, Madam Secretary, you almost agree with 
me 100 percent, and that would be the American Energy Act, the 
all-of-the-above act, not the ``nada'' energy act.
    And I yield back.
    The Chairman. I thank the gentleman.
    Mrs. Davis from California.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. It is always wonderful to see 
you, and I certainly appreciate your comments today.
    I wanted to state really quickly, because I think we have 
referred to Secretary Gates' comments at Kansas University, and 
that really has been very important to this committee to look 
at how we best use our military and how we develop and bolster 
really our other tools of power and certainly in the State 
Department, and so I am interested in your comments on that and 
certainly your lectures and your work on that.
    The Oversight and Investigation Committee has held a series 
of meetings around this topic, and one of the issues that we 
addressed was something that I guess I can phrase best in Tom 
Friedman: People want nation building, but they want it here at 
home. One of the things we have heard is we should not 
necessarily pull back, and I know that is not something that 
you would recommend, but that we have to focus on what we as a 
country need to do here. Clearly our economy needs that 
attention.
    But what downfall do you see if we are not able to really 
communicate with the American public on that issue? We are 
concerned sometimes communicating internationally, but I am not 
so sure we are doing a very good job communicating here at home 
either of the importance of these issues.
    How would you frame that? What kind of messages do you 
think are really critical to assure people that that 
international role we play is an important one?
    Secretary Albright. Chairman Skelton mentioned the 
``indispensable'' nation word, and while President Clinton used 
it, it kind of became identified with me. And the reason that I 
used it was not so much for the foreign message, but for the 
domestic message, because after the Cold War, there was a kind 
of a sense that we didn't need to be engaged anymore. Why 
didn't we just worry about what was going on at home? So I 
traveled around the U.S. a lot to talk about why it was in U.S. 
national interest to have engagement abroad, and I believe 
that, that there is no such thing anymore such as domestic or 
foreign policy, and even more so today.
    We were just talking about energy. Clearly it is something 
that requires international cooperation, diplomacy, trying to 
figure out, until we are able to have more sustainable energy 
here, how we deal with other countries. We have issues. The 
environment is something that no matter how strong we are, 
pollution comes from other countries, and we have to deal with 
it.
    Health issues, a variety of ways that the American public 
is affected by foreign policy. But I also understand I guess 
now we can also call it the Ike effect, but the Katrina effect, 
because I went to New Orleans, and people would say, why are we 
spending money on some country I have never heard of when you 
aren't doing something here? And the answer is that the 
American economy and government should be powerful and strong 
enough to do both because we are integrated, and we need to be 
able to explain to the American public that in order for us to 
be better off, there are parts of the world that we have to 
worry about, and it is the need for a consistent message. And I 
think more and more these days people do under the 
international--the domestic effect of an international issue.
    Mrs. Davis of California. Do you think that the issue 
around globalization and trade, is that somehow confused, and 
is there a better way to talk about these those issues? Is that 
partly what gets in----
    Secretary Albright. I do. And I think that part of the 
issue really is--I said in one response that I think one of the 
things that worries me--people actually come and say, how do we 
stop globalization? Well, you can't stop globalization, but we 
do need to mitigate the negative aspects of it. And one of the 
negative aspects is the growing gap between the rich and the 
poor abroad as well as here. And so as we look at our trade 
agreements, I think we have to figure out how to make them fair 
and make them--I think they are kind of organic. They have to 
be worked on all the time to make sure that they do not 
contribute to the growing gap between the rich and the poor, 
and they need to be explained better. They are not something 
that is a gift to another country, but they have to be worked 
in a way that they are free and fair.
    Mrs. Davis of California. Thank you. I appreciate your 
comments.
    Is there one way that you would certainly hope that through 
the course of the final weeks of the campaign that these kinds 
of messages would be communicated? Do you think they have been?
    Secretary Albright. No, I don't. And I hope very much that 
as the campaigns go on, that we actually have the opportunity 
to have some substantive discussions, and that as the 
candidates are asked questions, they are questions to this 
effect. And I know in any discussion I have ever been a part 
of, in the end you end up blaming the press. The bottom line is 
the press needs to focus on some of these questions, and when 
the moderators in the debates have an opportunity to ask 
questions, they should be substantive on these kinds of policy 
issues.
    Mrs. Davis of California. Thank you.
    The Chairman. I thank the gentlewoman.
    The gentleman from North Carolina Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, Madam Secretary, it is a pleasure and honor to hear 
you and to see you. I apologize I was not here for your 
presentation.
    I don't think this will be repetitive, but it is along the 
lines of what Mrs. Davis and to a certain degree Dr. Gingrey 
were asking you earlier.
    I have been extremely concerned about the growing debt of 
this Nation. I always make reference to the book by Pat 
Buchanan, ``Day of Reckoning''. In the book Pat Buchanan says 
that any great nation that has to borrow money from foreign 
governments to pay its bills, it will not long be a great 
nation. I found this article--my staff did during the 
summertime. It is last October. It was in the London Telegraph. 
I will just read the title to you and a couple sentences, and 
then I have got a question.
    ``China Threatens Nuclear Option of Dollar Sales. The 
Chinese Government has begun a concerted campaign of economic 
threats against the United States, hinting that it may 
liquidate its vast holdings of U.S. treasuries if Washington 
imposes trade sanctions or forces a yuan revaluation.''
    As we talk about the grand strategy for America, and I am 
one that has great love and respect for this country, but I 
want to know, your being the international leader that you have 
been and you still are, I cannot believe that these countries 
that have been our friends and still are our friends can think 
that America is not in trouble when we see what happened 
yesterday, and we know that the economy is in a very, very 
difficult situation, we know that there are going to be other 
financial institutions that could so-called fall. I wonder when 
you are meeting with your friends who are now your friends from 
these other countries, are they saying to you, Madam Secretary, 
can America pull out of this decline?
    I think this does impact and limits what we can do as it 
relates to the diplomatic efforts of the next President, and I 
do think that we have got a lot to work to do. You have 
acknowledged that in other forums where I have heard you speak. 
We have got a lot of work to do.
    But we come back to this issue that Mrs. Davis was talking 
about. Recently when Vice President Cheney went to the Republic 
of Georgia and promised that this country would help with $1 
billion to rebuild the Republic of Georgia, I had a friend, an 
acquaintance, in my district who actually asked me this 
question: Where are you going to get the $1 billion from, and 
how about $1 billion for the State of Georgia instead of the 
Republic of Georgia? And that is really what Mrs. Davis was 
making reference to. Are we seeing among your friends from 
other countries who have been friendly to America for the last 
100 years--are we seen as a country in trouble?
    Secretary Albright. I do think that people are very 
concerned about what has happened in the United States for a 
variety of reasons, some to do with the war in Iraq, and 
generally in terms of polling data abroad, people are concerned 
about what is happening. I do think that we have a very serious 
domestic economic situation, and it does affect how we can 
operate abroad. And I know the next President, whoever he is, 
is going to have a huge job in terms of dealing with a budget 
deficit and a war that costs a lot of money and economic issues 
that have not been dealt with here, health care systems, now 
the energy issue. And it goes back to a point that was made 
earlier.
    I think that the next President--I would, first of all, 
hope that there is a lot of bipartisanship; second, that there 
is very close working with Congress. I worked for Senator Ed 
Muskie across the Capitol, and I very much respect the 
relationship between the executive and legislative branch, and 
none of this can be done if there is not cooperation. You can't 
just decide that you are not going to work with one part of the 
government.
    I do think that we are viewed--if you look at what has 
happened in the last couple of days, what happened in New York 
is now spreading into a variety of areas. And I do think that 
the American public needs to understand how closely our economy 
is linked with an international economy. It goes both ways. I 
don't want us to all of a sudden become afraid of everything. 
The basic aspects--this country has very serious economic 
problems, but we do have a population that is eager to work, 
and we have to figure out how to motivate and give the American 
public back a sense of confidence and not operate on the fear 
factor.
    So I would think it is important, and it goes to 
Congresswoman Davis' questions. I do think that we have time in 
this campaign to have a serious discussion on these issues so 
that the American public understands what the consequences are, 
and I do think that the world--and without appearing overly 
partisan, the world is ready for a new American President. 
There is just no question about that.
    Mr. Jones. Mr. Chairman, if I can close with this, I could 
not agree with you more. I hope after the next election both 
parties would take off their Democratic hat, their Republican 
hat, and say to the new President, whoever that might be, let 
us do what is right for this country, get this country out of 
the ditch and back on the right road. Thank you.
    The Chairman. I thank the gentleman.
    The gentleman from Arkansas, who is the chairman of the 
subcommittee who held two excellent hearings on this very 
subject, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you, Madam Secretary, for being here.
    I want to ask--going back to you gave the five things we 
need to think about: nuclear nonproliferation; terrorism; 
helping democracy; the rich versus poor; the constellation of 
energy, environment, food supply issues, as things to think 
about. It seems like if you look at that list, and I don't see 
anything wrong with that list at all, that underlying it your 
thinking must be a sense that there really is not an 
existential threat to the United States right now, that it is 
relatively low compared to other times in our history; is that 
a fair statement?
    Secretary Albright. We don't have missiles pointed out at 
us.
    Dr. Snyder. That is right. And while there are people out 
there that can hurt us, bring down a plane, bring down a 
building, it doesn't mark the end of this country. So it seems 
like part of that shapes--we then don't have something that 
automatically goes to the top of our list. There is not a USSR, 
there is not a Nazi Germany that is kind of the unifying theme. 
So when we talk to foreign policy experts like yourself about, 
well, what should be the constellation of things in a grand 
strategy, we end up with different lists, and I am not sure 
what that means. Maybe it is a good problem to have.
    I am trying to come up with a unifying theme. It seems like 
perhaps one unifying theme is we should maybe perhaps focus 
more on capabilities and agility in foreign policy and skills 
and competence, and recognizing that the list four or five 
years ago may be different than the list we are talking about 
today.
    What are your thoughts on the ramblings I am doing here?
    Secretary Albright. I think you put it very well. It goes 
back to the original statement that the Chairman made, which 
was that there was a dangerous but simpler time, and it is easy 
to have a single enemy, and this is much harder to deal with. 
And for me the theme is that the 21st century is really quite 
different in terms of its threats and opportunities. I mean, 
you can add to the list, but it is definitely one where a 
different way of working is required. And so I think having the 
capability to assess the issues and try to figure out how best 
to protect U.S. national interests, which is, after all, the 
job of the President and the Congress in many ways, and that 
developing the tools to do that is what is important. So it 
goes to issues that you all deal with in terms of giving the 
right budgetary emphasis as to who has what part of the tool 
that has to be used and to be able to analyze the issues.
    The thing that I would not like to see the U.S. lose, 
however, is this combination of idealism and realism, and it is 
one of those debates that political scientists have that I 
always think is kind of phony, because you have to be either an 
idealist or a realist, and since I never know what I am, I have 
decided it is a phony debate. So I think what has to happen is 
it is like a balloon where you need the helium of idealism to 
get it up into the air, but you need the ballast of realism to 
give it a direction.
    So the U.S. has to remember who we are, what our values and 
ideals are, and then develop the tools to move through those 
very difficult 21st century threats that are not existential, 
although ultimately one could argue that the environment and 
energy ones may be, but in order to develop the tools to deal 
with that.
    Dr. Snyder. With regard to energy policy, and if I was 
making a list, that might be the one I would put at the top of 
the list with big stars around it, because it seems to relate 
to so many other things.
    We often refer to ``energy independence,'' and I tend not 
to use that phrase in my speeches. What I talk about is I say 
we need predictability of price and predictability of supply. 
And we are a trading Nation. We have always been a trading 
Nation. That may well mean that we are going to get some of 
those supplies from overseas. I suspect that it will.
    Would you comment on that, please?
    Secretary Albright. It is interesting because I responded, 
I think, in a similar way. I think it is--I actually use the 
term ``energy security'' because it--and if you break it down, 
it is what you have said, is that the capability to have some 
predictability and enough supply at a price that we can afford. 
But I think it is probably very hard to get total energy 
independence. There has been some discussion with people that I 
have talked to about the potential even of North American 
energy independence, but I think it is very hard to see us 
totally independent. But I do think and I would urge that there 
be an energy policy that moves in a direction of, as I have 
said, using new technology and looking at alternative sources 
and different alternative fuels themselves and renewables that 
would make it possible to move in that direction.
    Dr. Snyder. If we have predictability of supply and 
predictability of price, that means the rest of the world would 
also, and that helps the food supply issues and the 
environmental issues that you were talking about, I think. 
Thank you, Madam Secretary.
    The Chairman. I thank the gentleman.
    Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. It is good to see you again. 
Sorry I had to keep running in and out; so some of the things I 
ask you may have been asked already.
    You know all too well that in the late 1940's, when George 
Kennan wrote the X article in The Long Telegram, kind of what 
came out of that was what John Lewis Gaddis and others would 
say is kind of a rational approach to foreign policymaking, and 
maybe even coming up with some kind of a grand strategy, and 
that is, you sort of identify what your interests are, and they 
are not all necessarily the same--and I know that is kind of a 
problem some policymakers have distinguishing between vital and 
peripheral interests and what have you--and then you figure out 
what the threats are to those interests, and then you figure 
out what your capabilities are--because you said we don't have 
unlimited capabilities, although some administrations in the 
past, Republican and Democratic alike, I would argue, probably 
made the assumption almost that we had unlimited capabilities--
and then go from there and figure out what our approach to the 
world is going to be.
    Do you think that kind of construct still holds today?
    Secretary Albright. I think it would be very useful to have 
a discussion, and it goes to a campaign discussion about what 
is the role of the United States. I think that is one of the 
issues. Our national interests are very hard to define these 
days. It used to be that you would just say you have to protect 
the territory, the people, and the way of life, and it is 
harder to do than we thought, especially as our people move 
around or our way of life is, frankly, dependent on what 
happens in other countries.
    And I do think there are vital national interests, and 
those are the ones that you can never compromise on. But the 
question is what are the others? It is very hard--I think it is 
a useful exercise. I think the answers may not be as easy as 
they were after the 1940's, but it is worth going through the 
exercise of doing that because it is the only way that you can 
then match capabilities and intentions and role.
    I personally do not think we will come out with as neat a 
construct as article X or whatever Gaddis has been talking 
about, and he has, in fact, said we haven't had a grand 
strategy, and I am not sure he has proposed one of his own. But 
I do think going through the exercise is very worth it, and it 
helps in terms of thinking about what the priorities are.
    Mr. Loebsack. So you sort of point out some kind of guiding 
principles in your testimony. Whatever our strategy is going to 
be, there are certain principles that will guide that 
formulation of that strategy; is that correct?
    Secretary Albright. Yes. I happen to believe that the U.S. 
needs to have a moral foreign policy, which means we have to 
live up to our ideals. It is different than a moralistic 
foreign policy where we are telling everybody else what to do. 
But I do think that an American policy that sanctions torture, 
for instance, does not live up to our ideals and hurts us when 
we are then trying to get other countries to have better human 
rights records. So we need to match up what we believe in with 
what we are asking others.
    Mr. Loebsack. You mentioned here on the page two of your 
testimony that the road back for America begins with what must 
not change. So there is a road back. You are making that 
assumption at the outset.
    Secretary Albright. Absolutely. I have ultimate faith in 
the United States, and I do think that we are an exceptional 
country. I have always believed that. My problem is that we 
can't ask that exceptions be made for us. We have to abide by 
some international norms. We have to be the creators of them, 
but definitely I think there is a road back.
    Mr. Loebsack. Thank you, Madam Secretary, and I yield back 
the balance of my time. Thank you again.
    The Chairman. I thank the gentleman.
    The gentleman from Connecticut Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. This has been a great hearing.
    Just to sort of go from the grand strategy questions down 
to something a little bit more immediate to the Congress, it 
appears that the Administration is going to be presenting its 
proposed treaty with India for its consideration. And you 
talked a little bit about the challenge of nuclear 
proliferation, which is probably right there at the top of the 
list in terms of our global challenges ahead of us. And I just 
wondered whether you had any advice in terms of how to handle 
that treaty, because obviously there are pluses because it is 
the largest democracy in the world and an ally, but there are 
certainly minuses, it seems to me, in terms of the credibility 
of the program of nonproliferation if we sort of grandfather in 
or sanction a program that clearly operated outside the rules.
    Secretary Albright. I have to say I have had a very hard 
time with this one because of exactly the way that you have 
framed it. But I do think that our--having thought about it a 
long time, that it is an agreement that needs to go forward, 
because the relationship with India is absolutely a crucial 
one. And as I said earlier, the nonproliferation regime itself 
is broken in many ways, and I would hope that one could take 
various--the basis of that agreement in order to develop a new 
framework for nonproliferation discussions, getting the 
Indians, for instance, to help us ultimately on a fissile 
material cut-off treaty or looking at ways that we can 
cooperate in terms of not having technology transferred to 
countries that we don't want to have--the Indians did explode a 
weapon, but they are not proliferators actually.
    So working with them, I think it is worth going forward. 
But it is an easy--not an easy question or an easy answer 
because I have so believed in nonproliferation. But I also 
think that getting India--and they have gone through turmoil in 
order to present their part of it. I think it is interesting 
that the nuclear suppliers group and the energy agencies have 
agreed with this, but it needs to be watched carefully, and I 
think it should be taken as a basis of some kind of a new 
nonproliferation regime.
    Mr. Courtney. I think--I agree with the approach that you 
are taking. To me it seems like this Administration should 
really let the next Administration, though, be the one to 
embrace it, because I think, as you point out, it really needs 
to be part of a larger reform of the nonproliferation process. 
And I think that just going forward on one treaty in the 
absence of a new policy, which can only really happen under a 
new Administration, just seems to me sort of rushing the 
process a little bit.
    But in any case I also want to just touch on one other 
point you made earlier. You indicated that you support actually 
strengthening military troop levels in Afghanistan, and I agree 
with you on that, but I just wonder if you can maybe explain 
why you believe that. We just had a hearing here last week, 
Admiral Mullen came in, Secretary Gates, talking about time 
running out in Afghanistan; I mean, painted the picture in very 
dire terms, and then kind of like the Peggy Lee song ``Is That 
All There Is,'' their proposal for troop increases is into 2009 
in one brigade, not listening to what the requests are. I 
wonder if you could comment a little.
    Secretary Albright. I think what has been such a tragedy is 
we were on the right track to do something after 9/11, and our 
military performed very well, and we took our eye off the ball 
and did Iraq when there was not a connection between al Qaeda 
and Saddam Hussein.
    I do think that Afghanistan for itself is very important 
for its location geostrategically, but it also is a test case 
for NATO operating and trying to figure out how the American 
forces in and outside of NATO operate together. But I also 
think that in addition to whatever number of brigades need to 
go in there--I think the suggestion has also been made of two--
there needs to be additional help on the economic front and 
also working with the Karzai government on corruption issues, 
on institutional structures, trying to figure out the drug 
problem.
    So it is not just an issue for the military, but it is--we 
have to win the war in Afghanistan, and it has to be done in a 
way that the military can sustain it. The hardest part from a 
NATO perspective is the separate mandates of the various NATO 
countries. So the U.S., I think, needs to be more supportive of 
some of the NATO action and diplomatically see if we can get 
better coordination with the NATO forces.
    Mr. Courtney. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from California has an additional question or 
two.
    Mr. Hunter. Thank you, Mr. Chairman.
    Madam Secretary, Georgia and NATO membership. What do you 
think here?
    Secretary Albright. Well, as I need not remind you, I was 
the person that really pushed a lot for NATO expansion 
originally, and at the Truman Library we were able to bring the 
Czech Republic, Poland, and Hungary into NATO. And I also had 
spent a lot of time previously traveling around with the former 
Chairman of the Joint Chiefs, General Shalikashvili, explaining 
to the countries in Central and Eastern Europe that there were 
a variety of steps in order to become a NATO member, and that 
NATO was a responsibility as well as a privilege. So I have 
spent a lot of time on this.
    I do think that Georgia and Ukraine should be granted 
membership action plans. They are a way, the map plan, in terms 
of preparing countries for NATO membership.
    I also think that what should be different in the 21st 
century is that countries can choose what alliance they want to 
be in. They can't be told by some other country what alliance 
they should be in. So I personally believe that the map program 
should move forward.
    But, again, one of the hard parts here is that the meeting 
will be in December of the NATO Ministers. Some decisions will 
be made at a very difficult time in terms of our political 
process. But the signal that we send by not doing this, I 
think, is deleterious, makes it a real problem for both 
Georgians and Ukrainians, but it is not easy given the 
political situation in both those countries.
    But I personally believe that the Russians--I was there 
when we started this. I said to President Yeltsin--he said, 
this is a new Russia, we don't need a new NATO. And I said, it 
is a new NATO, it is not against you. And I think it provides a 
magnet for countries to understand their responsibilities in a 
democratic political space as well as to get their civilian 
control over the military and resolve whatever disputes they 
have.
    So a rather long answer, but I do think we should move 
forward with the map.
    Mr. Hunter. Well, I think it is necessarily a fulsome 
answer, but I just asked our professional staff because I 
hadn't looked at the particulars in NATO membership in terms of 
the requirement that the organization respond militarily to an 
attack, to an invasion of one of the countries. That is, of 
course, a big piece of the rub with Georgia. Would the NATO 
membership require, then, other NATO countries bringing in 
military equipment to resist a replay of what we saw with the 
Georgian armored units, with the Russian armored units, and 
aircraft moving into Georgia, basically invading Georgia? That 
is a tough one.
    Secretary Albright. I think it is hard. The map stage of 
this does not require the Article 5. That comes in with full 
membership. But I do think that--what I think needs to happen 
on Georgia, and there was some article this morning in the 
paper, is to know how all this started. I think that an 
investigation commission is something that we called for, and 
then the Georgia-European Commission moving some international 
observers in there, any number of things.
    But I do think that the promise of NATO membership is 
something that has helped countries move forward in terms of 
trying to deal with their internal issues. It is a catalyst for 
good change, and I frankly--you didn't ask me this, but I think 
the Russians should not be afraid of having independent 
countries on their borders. There is not a threat to Russia 
from democratic countries on their borders.
    Mr. Hunter. Is it Saakashvili, the correct pronunciation of 
the Georgian President? It appears now there is already a 
bubbling of opinion to the effect that he brought this 
problem--and I am talking about Georgian opinion or Georgian 
political pressure--and that he should move aside, that this 
was a failure on his part.
    The second piece of this Russian move is that--which would 
be, I think, disastrous for the newly freed nations and for the 
West is that he should be pushed aside, and someone who is very 
compliant to Russians' views should become the Georgian leader, 
because at that point--we talked about those petroleum arteries 
that go through Georgia. At that point Russia would have de 
facto control, if you will, over those lines. I mean, that 
would be--that would be a large piece of this energy 
independence that we have talked about, at least a small sliver 
that is left for Europe and for Turkey to be foreclosed.
    So are there things that we can do? Do you share a concern 
that Saakashvili is going to be overthrown, if you will, and 
are you concerned that we are doing enough to support him, and 
the rest of the West and the newly freed nations are doing 
enough to support him?
    Secretary Albright. Well, I think that I happen to have 
spent a lot of time working on this, and there were various 
times that there were disputes about the territorial integrity 
of Georgia. And the Russians have, in fact, I think, been over 
the last few years kind of having Predators fly over and 
various ways of exacerbating the situation.
    I think that what the Foreign Minister of Russia--when he 
kind of talked about the corpse of democracy in Georgia, and 
they were indicating that Saakashvili should go, I think that 
is outrageous. I think Saakashvili was elected. There is a lot 
of democratic activity going on in Georgia. I just met with a 
group of Georgians who came to Denver. They have differences 
among them. They have an opposition party. They don't agree on 
everything, but they agreed that what had happened in August 
was a--was something where their country had basically been 
invaded, and so they are united on that.
    But the decision has to be made as to what the leader of 
Georgia is by the Georgian people and not by what the Russians 
want, and I think I happen to support the idea that we give a 
billion-dollar assistance to Georgia. They are going to need 
help in reconstruction, and I think the combination of that and 
talking with them and dealing with them and the map plan for 
NATO is a good way to proceed.
    Mr. Hunter. Thank you, and thank you for a wonderful 
testimony, Madam Secretary.
    Mr. Chairman, thank you for indulging me and letting me 
spend a little extra time with questions. And incidentally, one 
letter that I have written to you and members of the final four 
conference on defense is that the Russians have sacked some of 
these bases, and they have vandalized a lot of the equipment; I 
understand from the reports that I have seen of bases that they 
have occupied in Georgia, equipment that was supplied by the 
U.S. And we have accounts that we can deduct money from--that 
would otherwise accrue to the benefit of Russia. I think we 
should do that on a one-for-one basis for any military 
equipment that has been vandalized or destroyed by the Russians 
in Georgia.
    But last, Mr. Chairman, this may be my last hearing, maybe 
we will have another one, but what a nice event to have former 
Secretary Albright testify. I just want to commend you. We have 
worked together for 28 years and have been on this committee. I 
look at the faces of Mel Price and Les Aspin and Ron Dellums 
and Floyd Spence and all of the great folks that have populated 
this committee and the issues that we have taken up.
    Your trademark has always been a deep wisdom with lots of 
focus on history and a corporate knowledge. And at our hearings 
at very important times, you brought up similar circumstances 
that this Nation went through 5, 10, 20, even 100 years earlier 
and asked us to draw some lessons from those circumstances, 
always at the right moment in a very timely way. And that has 
been a very admirable trait that you alone have brought to this 
committee. So thanks a lot. You have been a great friend and 
colleague, and it has been great serving with you here. Thank 
you.
    The Chairman. Mr. Hunter, thank you for your very kind and 
generous comments. It has been a thrill to work with you, as I 
mentioned earlier.
    Mr. Hunter. And, Mr. Chairman, I do have a letter for you 
asking for us to have another hearing here; so I am going to 
give this thank you before we are finished.
    The Chairman. Thank you very much. I acknowledge receipt of 
it, dated today.
    Ms. Albright, you have raised the issue of Russia, and let 
me ask you the bottom-line question, Madam Secretary. Why did 
Russia do this? I have asked myself why in the world they went 
into Georgia as they did, and I know that there were strained 
relations and that Georgia maybe didn't use some good judgment 
on some I would consider minor incidents. But why did Russia do 
this? And the only conclusion I can reach is that Russia is 
sending the message to us and to the West, we are back, we have 
come back. We have, like Phoenix, arisen again. And that is the 
only conclusion I can come to. And I appreciate your raising 
the issue, but, Madam Secretary, do you have a better answer to 
that basic question, why did they do this?
    Secretary Albright. Well, I agree with you. I think that 
especially Prime Minister--actually President Putin wanted to 
show that they are back. I think they have misinterpreted a lot 
of what happened in the 1990's where they think that we didn't 
treat them right, when the truth is we helped bail them out. We 
made clear that NATO was not opposed to them, that we wanted to 
have a partnership and a dialogue with them. But I think that 
in some ways President Putin is looking at Russia in the 19th 
century, and looking at the spheres that Russia had, and 
looking at ways that are inappropriate for the 21st century.
    I would hope, despite all that I have said, is that I feel 
very strongly on what I said about Georgia, and I agree with 
Congressman Hunter on this, but I think that we cannot afford 
to go back to a Cold War relationship with Russia. We need to 
figure out where the areas are where we can cooperate, and we 
have to--if you go back to my five big issues, they require 
cooperation with Russia, to recognize that they are one of the 
powerful countries of the world, and to continue to deal with 
them. We dealt with them through the Cold War. We need to deal 
with them now. So it is a matter of not recreating the Cold 
War. We have to make clear what our national interests are. But 
I do think that the basic answer to your question is that they 
do want us to see them as being back.
    I also think, in pure speculation, that they have made a 
big mistake because the Caucasus is a very complicated area, 
and there already are little rumblings in various other parts 
that are already part of Russia that they are not happy with 
some of the things that happened. And then we are also seeing 
problems within the Russian market and the economy and 
investment there. So in the long run I think this might not 
have been a very smart decision on the part of Putin even to 
prove that they are back.
    The Chairman. Thank you.
    Before we close the hearing, the gentleman from California 
has one other thought.
    Mr. Hunter. Thank you, Mr. Chairman.
    Just one question, Madam Secretary. What is your 
understanding of the Bush doctrine?
    Secretary Albright. The Bush doctrine is a combination of 
things, but the main part of it is the issue about preemption, 
the idea that we have the duty or the right to intervene in a 
country if we believe that it is threatening us. But it is also 
issues to do with freedom and deciding who is on our side and 
who is not, but it is commonly seen as the issue of preemption.
    Mr. Hunter. Okay. But I saw an analysis the other day that 
said there were like seven individual--one of the historians 
pointed out seven Bush doctrines. I thought that the guy who 
asked that question, I guess was Mr. Gibson, of Governor 
Palin--it looked to me like he left off the last three words, 
which was ``Bush doctrine of preemption,'' because that is what 
I have heard most about. But I have heard also the other ones, 
including the Bush Administration's statement on freedom and 
spreading democracy in a very overt way. But are there others 
that you can identify?
    Secretary Albright. No. It is based on a number of speeches 
and on the national security strategy document, and it has a 
number of pieces to it. But I do think that what people--when 
you say ``Bush doctrine,'' for most people it does mean the 
preemption issue, which is a very difficult and complicated 
one, and Governor Palin did, in fact, point to the issue of 
intelligence, and in many ways you have to know what is going 
on in order to decide that you are going to hit some country if 
you don't have the proper intelligence on that.
    Mr. Hunter. Thank you very much.
    And again, Mr. Chairman, thank you for the hearing.
    The Chairman. Thank you. I am sorry that you had to sing 
solo today, although it has been very, very informative. The 
staff, Mr. Hunter, and I did try without success to have 
someone sit with you, but everyone seems to be either out of 
town or in Europe. Thank you so much for your excellent 
testimony, and we wish you well.
    Mr. Hunter, again, thank you.
    Mr. Hunter. Thank you, Mr. Chairman.
    Secretary Albright. It has been a great pleasure for me.
    And, Congressman Hunter, the best of luck.
    And Chairman Skelton and I see each other often because we 
do Truman things together, and I have the highest respect for 
him and for you, Congressman.
    The Chairman. Thank you again.
    [Whereupon, at 12:01 p.m., the committee was adjourned.]


      
=======================================================================



                            A P P E N D I X

                           September 16, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 16, 2008

=======================================================================


     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                                  <all>

</pre></body></html>
